                                              EMPLOYEE BENEFITS SECURITY
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              EBSA NEEDS TO MONITOR THE PROJECTED
                                              IMPACT OF THE QUALIFIED DEFAULT
                                              INVESTMENT ALTERNATIVE REGULATION




                                                                  Date Issued:     March 31, 2011
                                                               Report Number:    09-11-002-12-121
U.S. Department of Labor                                     March 2011
Office of Inspector General
Office of Audit
                                                             EBSA NEEDS TO MONITOR THE PROJECTED
                                                             IMPACT OF THE QUALIFIED DEFAULT
                                                             INVESTMENT ALTERNATIVE REGULATION
BRIEFLY…
Highlights of Report Number 09-11-002-12-121, to the
Assistant Secretary for Employee Benefits Security.          WHAT OIG FOUND
                                                             The OIG found EBSA needs to develop a process to
WHY READ THE REPORT
                                                             determine whether the QDIA regulation is helping to
Approximately one-third of eligible workers do not           increase employee participation and average
participate in their employers’ 401(k)-type plans. The       investment returns in retirement plans through
Pension Protection Act (PPA), signed into law in 2006,       automatic enrollments.
removed impediments to employers adopting automatic
enrollment, including employer fears about legal liability   EBSA estimated the regulation would increase
for market fluctuations and the applicability of state       retirement savings from about $70 billion to $134 billion
wage withholding laws. These impediments had                 by 2034. However, EBSA did not develop plans to
prevented many employers from adopting automatic             determine whether automatic enrollments resulted in
enrollment, or had led them to invest workers’               greater employee participation or increased retirement
contributions in low-risk, low-return “default”              savings subsequent to issuing the regulation.
investments.
                                                             Since increased participation and investment returns
The PPA directed the Department of Labor to issue a
                                                             are critical to the retirement savings of American
regulation to assist employers in selecting optimal
                                                             workers, it is important to monitor these indicators.
default investments. The Department issued a
                                                             Without a monitoring process in place, increasing the
proposed regulation on October 24, 2007.
                                                             retirement savings of employees is at risk because
                                                             EBSA cannot know if the QDIA regulation is having its
The Department estimated the regulation would
                                                             intended effects.
increase retirement savings from about $70 billion to
$134 billion by 2034. The Department stated this
increase would be accomplished through increased             WHAT OIG RECOMMENDED
employee participation and increased average
investment returns.                                          The OIG recommended the Assistant Secretary for
                                                             Employee Benefits Security develop and implement a
                                                             process to monitor if employee participation and
WHY OIG CONDUCTED THE AUDIT
                                                             average investment returns in retirement plans increase
We conducted an audit to determine what EBSA is              over time and take appropriate action if needed to
doing to assess employee participation in retirement         determine if any modifications to the regulation is
plans and average investment returns are increasing.         warranted.
The audit covered EBSA’s monitoring process for              In response to our draft report, the Assistant Secretary
assessing, on a continuing basis, the impact of QDIA         for Employee Benefits Security stated that EBSA does
regulation. The audit period covered December 2007           not plan to monitor the separate effect of the QDIA
through March 2011.                                          regulation, because its existing processes for
                                                             monitoring retirement plan trends and assessing
READ THE FULL REPORT                                         whether and when regulations should be amended are
                                                             effective. We continue to believe that in order to make
To view the report, including the scope, methodology,        appropriate recommendations to policy makers, EBSA
and full agency response, go to:                             should evaluate whether the QDIA regulation is having
http://www.oig.dol.gov/public/reports/oa/2011/09-11-         its intended impact.
002-12-121.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              EBSA Needs to Monitor QDIA Impact
                                    Report No. 09-11-002-12-121
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — What is EBSA doing to assess if employee participation in retirement 

            plans and average investment returns are increasing? ....................... 3

         EBSA does not know if QDIAs are achieving their intended economic 

         impact................................................................................................................... 3


         Finding — EBSA Needs to Have a Process to Assess if the QDIA 

                   Regulation is Accomplishing its Purpose ............................................ 3


Recommendations ........................................................................................................ 5


Appendices
         Appendix A Background ....................................................................................... 9

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 11

         Appendix C Acronyms and Abbreviations .......................................................... 13

         Appendix D EBSA Response to Draft Report ..................................................... 15

         Appendix E Acknowledgements ......................................................................... 17





                                                                                    EBSA Needs to Monitor QDIA Impact
                                                                                          Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              EBSA Needs to Monitor QDIA Impact
                                    Report No. 09-11-002-12-121
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 31, 2011

                         Assistant Inspector General’s Report


Phyllis C. Borzi
Assistant Secretary for
Employee Benefits Security
US Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


Approximately one-third of eligible workers do not participate in their
employer-sponsored defined contribution plans (such as 401(k) plans). The Pension
Protection Act (PPA), signed into law in 2006, removed some important impediments to
increasing participation through automatic enrollment, including employer fears about
legal liability for market fluctuations and the applicability of state wage withholding laws.
These impediments had prevented many employers from adopting automatic enrollment
or had led them to invest workers’ contributions in low-risk, low-return “default”
investments. Under the PPA, employers are relieved of certain legal liabilities if they
invest the non-directed assets in a “qualified default investment alternative” (QDIA).

In response to the PPA, DOL issued a regulation to increase employee participation and
average investment returns in retirement plans by assisting employers in selecting
optimal default investments. DOL administers this regulation through the Employee
Benefits Security Administration (EBSA).

We conducted an audit to determine what EBSA is doing to assess if employee
participation in retirement plans and average investment returns are increasing.

To accomplish our objective, we reviewed EBSA’s policies and procedures regarding
the assessment of potential and actual impacts of the QDIA regulation. We interviewed
EBSA officials, reviewed external reports obtained by EBSA from its Regulatory Impact
Analysis, and interviewed officials from private employee benefits organizations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.


                                                                  EBSA Needs to Monitor QDIA Impact
                                              1                         Report No. 09-11-002-12-121
                                            U.S. Department of Labor – Office of Inspector General



RESULTS IN BRIEF

EBSA needs to develop a process to determine whether the QDIA regulation is helping
to increase employee participation and average investment returns in retirement plans
through automatic enrollments.

EBSA estimated the regulation would increase retirement savings from about $70 billion
to $134 billion by 2034. However, EBSA did not develop plans to determine whether
automatic enrollments resulted in greater employee participation or increased retirement
savings subsequent to issuing the regulation. The Form 5500, Annual Return/Report of
Employee Benefit Plan, now includes data on automatic enrollment, but does not
include data on employee participation or average investment returns. Alternatively,
EBSA could use available private data to determine if, in the years since EBSA issued
the regulation, either plan participation or average investment returns increased.

EBSA officials stated it would be difficult to attribute any actual increases in retirement
savings or plan participation to the regulation and they do not believe it is necessary.
Therefore, they did not develop a process to monitor the actual effect.

EBSA intended its QDIA regulation to help accomplish the goal of increasing
participation and average investment returns through automatic enrollment and default
investments. Since increased participation and investment returns are critical to the
retirement savings of American workers, it is important to monitor these indicators.
Without a monitoring process in place, increasing the retirement savings of employees,
as EBSA intended, is at risk because EBSA cannot know if the QDIA regulation is
having its intended effects.

We recommend the Assistant Secretary for Employee Benefits Security develop and
implement a process to monitor if employee participation and average investment
returns in retirement plans increase over time and take appropriate action to determine
if any modifications to the regulation is warranted.

In response to our draft report, the Assistant Secretary for Employee Benefits Security
stated that existing processes for monitoring retirement plan trends and assessing
whether and when its regulations should be amended are effective and does not believe
additional steps to monitor the separate effect of the QDIA regulation are necessary.
Additionally, the Assistant Secretary stated that collecting the data required to correlate
the regulation's impact on employee participation and investment returns in retirement
plans would be cost prohibitive.

We continue to believe that EBSA needs to evaluate whether the QDIA regulation is
having its intended impact. To clarify, we are not recommending that EBSA directly
correlate such factors as rates of return to the regulation. We are recommending that
EBSA assess such indicators as whether employee participation is increasing through
automatic enrollment and whether default investments are moving from low return
investments to more appropriate retirement vehicles. We believe EBSA has access to

                                                             EBSA Needs to Monitor QDIA Impact
                                              2                    Report No. 09-11-002-12-121
                                           U.S. Department of Labor – Office of Inspector General



the data needed to perform these types of assessments, and believe the result of such
assessments would be useful in evaluating the impact of the regulation and to identify
possible ways to improve it.


RESULTS AND FINDING

Objective — What is EBSA doing to assess if employee participation in retirement
            plans and average investment returns are increasing?

       EBSA does not know if QDIAs are achieving their intended economic impact.

Finding — EBSA Needs to Have a Process to Assess if the QDIA Regulation is
         Accomplishing its Purpose

EBSA has not assessed if employee participation in retirement plans and average
investment returns are increasing.

Under automatic enrollment, an employer enrolls a worker into a retirement plan
automatically unless they explicitly choose to opt out. In the past, under defined
contribution plans, workers typically would decide whether to participate.

While EBSA had concerns about using private data, we believe it would be useful for
EBSA to use available private data to determine if, in the years since EBSA issued the
regulation, either plan participation or average investment returns increased. For
example, in recent years, studies have shown that automatic enrollment in retirement
plans increases both the number of workers participating in retirement plans and the
amount of money saved. For example, a study by Fidelity investments showed that
automatic enrollment increased worker participation in retirement plans from 53 percent
to 81 percent. Additionally, the participation rate for eligible employees in their 20s
earning less than $30,000 per year was 54 percentage points higher than for those
without automatic enrollment.

Another study by Vanguard Center for Retirement Research showed that automatic
enrollment increased worker participation from 45 percent to 86 percent. The Center’s
analysis of about 50 plans adopting automatic enrollment showed that automatic
enrollment raises participation rates across most demographic groups, with its largest
effect among low-wage and younger employees. Specifically, workers under 25 had a
participation rate that increased from 30 percent to 81 percent when auto-enrollment
was a plan feature. The study further noted that workers earning less than $30,000, and
hired under automatic enrollment have a participation rate of 77%, but employees at the
same income level hired under voluntary enrollment had a participation rate of 25%.
The study pointed out that the DOL regulation was expected to encourage increased
investment activity in diversified multi-asset-class portfolios, thus increasing retirement
security.



                                                            EBSA Needs to Monitor QDIA Impact
                                             3                    Report No. 09-11-002-12-121
                                            U.S. Department of Labor – Office of Inspector General



Despite these benefits, an impediment to automatic enrollment has been the fiduciary
liability attached to withholding funds from employees’ paychecks and choosing where
to invest the money absent specific directions from the employee. If plan officials
invested the funds and the investments lost value, plan officials, as fiduciaries, could be
liable for the losses. Thus, sponsors were hesitant to use automatic enrollment. When
they did, they chose very safe investments that produced low returns. While reducing
the risk of loss, these safe investments were generally not appropriate for long-term
retirement investments.

The PPA tried to alleviate this situation by directing EBSA to develop a regulation that
would define investments sponsors could utilize, but would shield them from fiduciary
liability and increase the return employees received on their retirement investment.

In implementing the PPA, EBSA believed the QDIA regulation would be consistent with
its mission to increase retirement security for American workers. In issuing the final rule,
EBSA stated:

              This regulation is expected to have two major economic
              consequences. Default investments will be directed more
              toward higher-return portfolios, boosting average investment
              returns, and automatic enrollment provisions will become
              more common, boosting participation. Both of these effects
              will increase average retirement savings, especially among
              workers who are younger, have lower earnings and/or more
              frequent job changes.

EBSA also stated that it was confident the regulation would increase the incidence of
automatic enrollment.

However, EBSA did not develop plans to monitor whether employee participation or
overall retirement savings improved or to determine if any modification to the regulation
was warranted. Although, EBSA recently revised the Form 5500 to collect information
on automatic enrollment, this was not done in relation to the QDIA regulation and EBSA
has not developed formal plans to use this data to evaluate whether the regulation is
having the intended effect. In addition, EBSA did not collect data on employee
participation or average investment returns.

EBSA officials stated it would be difficult to attribute any actual increases in retirement
savings or plan participation to the QDIA regulation and do not plan to monitor the
regulations impact.

Although it could be difficult to attribute any actual increases in retirement savings or
plan participation to the QDIA regulation, EBSA should be able to determine whether
the overall objectives, increases in employee participation and average investment
returns, are being achieved. In addition to the Form 5500, there are other sources for
data, some of which are currently available. For example, BLS issues a National

                                                             EBSA Needs to Monitor QDIA Impact
                                              4                    Report No. 09-11-002-12-121
                                           U.S. Department of Labor – Office of Inspector General



Compensation Survey that provides information on trends in retirement plan features
and participation rates. In addition, private research studies, as noted earlier, have used
information from retirement investment providers such as mutual fund companies, which
have current data on retirement plans they serve. EBSA does not currently have plans
to utilize this information to analyze the impact of the regulation.

RECOMMENDATION

We recommend the Assistant Secretary for Employee Benefits Security develop and
implement a process to monitor if employee participation and average investment
returns in retirement plans increase over time and take appropriate action if needed to
determine if any modifications to the regulation is warranted.

We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                            EBSA Needs to Monitor QDIA Impact
                                            5                     Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              EBSA Needs to Monitor QDIA Impact
              6                     Report No. 09-11-002-12-121
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                EBSA Needs to Monitor QDIA Impact
                7                     Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              EBSA Needs to Monitor QDIA Impact
              8                     Report No. 09-11-002-12-121
                                                   U.S. Department of Labor – Office of Inspector General



                                                                                           Appendix A
Background

The Pensions Protection Act (PPA) was enacted in 2006 and was the most
comprehensive reform of the nation’s pension laws since the enactment of the
Employee Retirement Income Security Act of 1974 (ERISA, P.L. 93-406). The PPA
directed the Department of Labor to issue a regulation to assist employers in selecting
default investments 1 that best serve the retirement needs of workers who do not direct
their own investments.

The Department issued 29 Code of Federal Regulations Part 2550 (29 CFR Part 2550),
Default Investment Alternatives Under Participant Directed Individual Account Plans, on
October 24, 2007. At that time, EBSA expected that the regulation would have two
major economic impacts, increasing both average investment returns and employee
participation in retirement plans through automatic enrollment. EBSA estimated the
regulation would increase retirement savings from about $70 billion to $134 billion by
2034. The Department believed there was a substantial risk that savings would fall short
relative to many workers’ retirement income expectations, because of increasing health
costs and stresses on defined benefit pension plans and the Social Security program.
The Department believed the regulation would help reduce that risk.




1
 In the absence of employee directions on investing retirement contributions in a self-directed defined
contribution plan, the contributions will be automatically enrolled in a QDIA.

                                                                     EBSA Needs to Monitor QDIA Impact
                                                    9                      Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              EBSA Needs to Monitor QDIA Impact
              10                    Report No. 09-11-002-12-121
                                                    U.S. Department of Labor – Office of Inspector General



                                                                                           Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

What is EBSA doing to assess if employee participation in retirement plans and average
investment returns are increasing?

Scope

The audit covered EBSA’s monitoring process for assessing, on a continuing basis, the
impact of QDIA regulation. The audit period covered the effective date of the regulation,
December 2007, to the exit conference in March 2011. We conducted our fieldwork at
EBSA’s headquarters in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our objective, we reviewed applicable criteria, including 29 CFR Part
2550, the Pension Protection Act of 2006, and Field Assistance Bulletin 2008-3. We
assessed EBSA policies and procedures regarding the QDIA regulation, specifically,
those procedures regarding the potential and actual impact of the QDIA regulation. We
interviewed EBSA officials from the Office of Policy and Research to obtain an
understanding of EBSA’s process for assessing the impact of the QDIA regulation. We
obtained and reviewed the three external reviews EBSA obtained of its Regulatory
Impact Analysis (RIA) 2 .

Furthermore, we interviewed officials from EBSA’s (1) Office of Enforcement concerning
how the QDIA regulation is enforced, (2) Office of Regulations and Interpretations
concerning how the QDIA regulation was developed and implemented, and (3) Office of
Participant Assistance concerning how the regulation was incorporated into EBSA
outreach efforts.

We also interviewed officials from the Profit Sharing/401(k) Council of America and the
Employee Benefits Research Institute to obtain their views regarding EBSA’s regulation


2
    The analysis that EBSA used to determine the regulation’s impact.

                                                                        EBSA Needs to Monitor QDIA Impact
                                                     11                       Report No. 09-11-002-12-121
                                           U.S. Department of Labor – Office of Inspector General



and its potential effect on retirement plans. Additionally, we interviewed GAO officials
and reviewed GAO reports as well as studies by Vanguard and Fidelity Investments.

In planning and performing our audit, we considered EBSA’s internal controls that were
relevant to our audit objective. We confirmed our understanding of these controls and
procedures through interviews, observations, and inquiries. Our consideration of internal
controls relevant to our audit objective would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.


Criteria

29 CFR 2550 Default Alternatives under Participant Directed Individual Account Plans;
Final Rule

Pension Protection Act of 2006

Field Assistance Bulletin 2008-3




                                                            EBSA Needs to Monitor QDIA Impact
                                            12                    Report No. 09-11-002-12-121
                                      U.S. Department of Labor – Office of Inspector General



                                                                             Appendix C
Acronyms and Abbreviations


CFR             Code of Federal Regulations

DOL             Department of Labor

EBSA            Employment Benefit Security Administration

ERISA           Employment Retirement Income Security Act

PPA             Pension Protection Act of 2006

QDIA            Qualified Default Investment Alternatives

RIA             Regulatory Impact Analysis




                                                       EBSA Needs to Monitor QDIA Impact
                                       13                    Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              EBSA Needs to Monitor QDIA Impact
              14                    Report No. 09-11-002-12-121
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                               Appendix D
EBSA Response to Draft Report



     U.S. Department of labor               Assistanl Secretary for
                                            Employee Benefits Security Administration
                                            Washington, D.C. 20210




                MAR 3 0 1011


            MEMORANDUM FOR:              ELLIOT P. LEWIS
                                         Assistant Inspector General for Audit                   (l   OJ""')
                                                                                ~. /vl,i   ...   l­
            FROM:                        PHYLLIS C. BORZI                       V•
                                         Assistant Secretary for Employee Benefits Security

            SUBJECT:                     EBSA Response to O[G Performance Audit
                                         Draft Audit Report Number 09-11-002-1 2-1 2 1

            Thank you for the opportunity to comment on the recommendation in your above
            referenced Audit Report on the Emp[oyee Benefits Security Administration's assessment
            of whether employee participation in retirement plans and average retirement savings arc
            increasing.

            DIG's Recommendation: De\'c10p and implement a process to monitor ir average
            investment returns and employee participation in retirement plans increase over
            time and to take appropriate ac tion ir needed and to determine if any modifications
            to the regulation or Q ualified Default Investment Alternatives (QDIA)(29 e FR
            2550.404c-5) is warranted.

            EBSA believes ilS existing processes for monitoring retirement plan trends and assessing
            whether and when its regulations should be amended are effC(;tive and appropriately
            responsive to the Inspector General 's (IO 's) recommendations. No additional steps are
            warranted. For example, EBSA recently revised the Form 5500 to collect infomlation on
            automatic enrollment, as the IG reports. EBSA also routinely produces statistics and
            carries out research on retirement plan trends, and makes use of statistics and research
            produced by others as illustrated by EBSA's production and publication of estimates of
            retirement plan participation and investment returns annually (see
            hUp:!!www.dol.gov!ebsalodf/ 1975-200Zhistoricaltables.l?dO. These are just some of
            myriad indicators EBSA follows to monitor and assess retirement plan trends.

            As the IG reports, EBSA has no plan to monitor the separate effect of the QDIA
            regulation on retirement plan investment performance and participation. Isolating the
            QDlA regulation's effect from the effects ofiarger forces is infeasible and beyond the
            scope of the 10's recommendation. The data required to attempt to correlate the
            regulation's impact on investment returns and employee participation in retirement plans
            would be cost prohibitive to collect, and no pre-regulation baseline data exists for
            comparison.




                                                                                EBSA Needs to Monitor QDIA Impact
                                                        15                            Report No. 09-11-002-12-121
                                          U.S. Department of Labor – Office of Inspector General




EBSA continuall y evaluates the effectiveness of its existing regulations and the
appropriateness of amendments to them. This evaluation is the basis for EBSA's
regulatory agenda, which EBSA publishes semiannually pursuant to Executive Order
12866. The evaluation is informed by retirement plan trends, stakeholder input,
experience gained through EBSA's enforcement and participant assistance programs, and
various external factors such as legislative and technological developments. Such
evaluation recently prompted EBSA to propose amendments to its QDlA regulation (See
Federal Register: N ovember 30, 2010 (Volume 75, Number 229), Proposed Rules, Page
73987-73995).

EBSA appreciates this opportunity to explain its processes for monitoring retirement plan
trends and assessing whether and when its regulations should be amended.




                                           2




                                                               EBSA Needs to Monitor QDIA Impact
                                           16                        Report No. 09-11-002-12-121
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane, Audit Director, Mary Stepney,
Naomi Byberg, Samantha Cash-Johnson, Timothy Kerschen, and Mary Lou Casazza.




                                                        EBSA Needs to Monitor QDIA Impact
                                        17                    Report No. 09-11-002-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              EBSA Needs to Monitor QDIA Impact
              18                    Report No. 09-11-002-12-121
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
